PENSION BENEFIT GUARANTY CORPORATION




  SEMIANNUAL REPORT
   TO THE CONGRESS




  OFFICE OF INSPECTOR GENERAL


      OCTOBER 1, 1998 - MARCH 31, 1999
                                                                           Office of Inspector General

                                                                                  April 30, 1999



Alexis Herman
Chairman, PBGC Board of Directors

       It is my pleasure to submit this twentieth semiannual report to the Congress. This
report summarizes the major activities and accomplishments of the Office of Inspector
General (OIG) for the six-month period ending March 31, 1999. Our accomplishments were
made possible by the dedicated efforts of a committed and professional staff.

       Our work this reporting period has resulted in significant operational benefit to
PBGC. Our efforts were directed to increased economy, efficiency, and quality of PBGC's
operations and combating actual or potential occurrences of waste, fraud, and misuse of
Government funds. My office issued eight (8) reports in the audit area, including the audit
of PBGC’s financial statements for 1998 and 1997, and three reports concerning PBGC’s
issuance of initial determination letters that were initiated at the request of Senator
Grassley, Chairman of the Senate Special Committee on Aging.

        In the investigative area, we opened nineteen (19) and closed nine (9) investigations.
Some of the significant investigations we closed this period include the improper assistance
of an applicant for employment by the selecting official, and harassing internet e-mail. We
also conducted investigative activities for the Department of Justice to assist in evaluating
allegations in a qui tam action, and obtaining an indictment of a pension participant who
defrauded PBGC. We operate a post office box and "1-800" Hotline which continues to
receive calls and mail primarily from pension plan participants. All of these were "first-time"
contacts that were referred directly to the agency for customer assistance.

        The results achieved by the OIG were enhanced by the support of PBGC’s Executive
Director, managers, employees, and the Congress. I look forward to continuing the
productive professional working relationship as we strive to maintain the highest levels of
integrity and quality in the Corporation's programs and operations, and helping PBGC meet
its important challenges.


                                             Sincerely,



                                             Wayne Robert Poll
                                             Inspector General


Enclosure
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                  PENSION BENEFIT GUARANTY CORPORATION




EXECUTIVE SUMMARY
This is the twentieth semiannual report to the Congress summarizing the activities and
accomplishments of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector
General (OIG) for the period October 1, 1998 through March 31, 1999. Our efforts were directed
toward performing audits, inspections, and evaluations of the Corporation's programs and
operations, conducting several large and complex investigations, and providing technical
assistance and advice on Corporate programs. In the audit area, we issued eight (8) reports,
including an:

       • audit of PBGC’s 1998 financial statements, which resulted in unqualified
         opinions with respect to the financial statements and management’s
         assertion concerning the operation of financial management controls (with
         three reportable conditions), and a report on PBGC’s compliance with laws
         and regulations (see page 2);

       • agreed-upon procedures to evaluate PBGC’s submission of certain data to
         the Department of Treasury in preparation for consolidated financial
         statements of the United States (see page 3);

       • three reports in response to questions asked by the Senate Special
         Committee on Aging about PBGC’s issuance of initial determination letters:

         1. the efficiency and effectiveness of the benefit determination process,
         2. the length of time it has taken PBGC to issue IDLs, and
         3. the impact of the delays upon participants (see pages 3 and 4).

In the investigative area, we opened nineteen (19) new investigative cases during the reporting
period, and closed nine (9) cases. Two of the cases closed this period involved:

       • improper assistance of an applicant for employment by the selecting official
         (see page 10); and

       • harassing internet e-mail (see page 10).

In addition, we obtained an indictment of a pension plan participant who defrauded PBGC and
assisted the Department of Justice (DOJ) by investigating and analyzing certain allegations in
a qui tam action in which DOJ later determined not to intervene. We revisited the agency’s
decision to conduct investigations of an allegation that a waiver of spousal benefits is
fraudulent (see page 10). PBGC agreed that when it receives an allegation from a pension plan
participant’s spouse that he/she had not signed the waiver of benefits form, that allegation will
be referred to the OIG for investigation.




                                                i
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                                     PENSION BENEFIT GUARANTY CORPORATION




TABLE OF CONTENTS
               LETTER TO THE CHAIRMAN

               EXECUTIVE SUMMARY ....................................................................                i

               TABLE OF CONTENTS.......................................................................              ii

               LIST OF TABLES ................................................................................       iii

               INTRODUCTION..................................................................................        1

                         The Pension Benefit Guaranty Corporation
                         The Office of Inspector General

               AUDIT ACTIVITIES ............................................................................         2

                         Overview
                         Audits and Evaluations
                         Audit Follow-up and Resolution
                         Access to Information
                         PBGC Management - Inspector General Disagreements

               INVESTIGATORY ACTIVITIES .........................................................                    9

                         Overview
                         Activity This Period
                         Significant Investigations

               OTHER OFFICE OF INSPECTOR GENERAL ACTIVITIES .............                                            12

                         Review of Proposed Statutory and Regulatory Changes
                         Consultation With Agency
                         Consultation With Congress
                         Liaison With the United States General Accounting Office




               GLOSSARY...........................................................................................   14




                                                              ii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                      PENSION BENEFIT GUARANTY CORPORATION




LIST OF TABLES
       TABLE 1 - INSPECTOR GENERAL ISSUED REPORTS .........................................      6

       TABLE 2 - REPORTS ISSUED WITH QUESTIONED COSTS ...............................            7

       TABLE 3 - REPORTS ISSUED WITH RECOMMENDATIONS
                   THAT FUNDS BE PUT TO BETTER USE .........................................     8

       TABLE 4 - STATISTICAL TABLES OF INVESTIGATIONS ...................................        11

       TABLE 5 - CROSS-REFERENCE TO REPORTING REQUIREMENTS
                   OF THE INSPECTOR GENERAL ACT...............................................   13




                                                   iii
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




INTRODUCTION
THE PENSION BENEFIT GUARANTY CORPORATION

       The Pension Benefit Guaranty Corporation (PBGC) was established under Title
       IV of the Employee Retirement Income Security Act of 1974 (ERISA), as amended,
       5 U.S.C. §§ 1301-1461, as a self-financing, wholly-owned Federal Government
       Corporation to administer the pension insurance program. ERISA requires that
       PBGC (1) encourage the continuation and maintenance of voluntary private
       pension plans; (2) provide for the timely and uninterrupted payment of pension
       benefits to participants and beneficiaries; and (3) maintain premiums at the
       lowest level consistent with carrying out PBGC's obligations.

       For about 42 million Americans, the PBGC provides assurance that their
       retirement benefits are safe now and for the future. The PBGC protects the
       pensions of participants in certain defined benefit pension plans, i.e., plans that
       promise to pay definitely determinable retirement benefits. Such defined benefit
       pension plans may be sponsored individually or jointly by employers and by
       unions. Currently, there are approximately 209,000 participants receiving
       benefit payments from PBGC. Additionally, in its fiscal year 1998 Financial
       Statement, the PBGC reported that it has assets of $18.4 billion and liabilities of
       $13 billion.


THE OFFICE OF INSPECTOR GENERAL
       One of the strategic goals of the OIG is to assist the PBGC in operating more
       efficiently and effectively by identifying ways to improve the PBGC's programs.
       To accomplish this goal, the OIG conducts agency audits, inspections, and
       investigations, and makes recommendations to PBGC management. In addition,
       the OIG is required statutorily to inform the agency head of fraud and other
       serious problems, abuses, and deficiencies relating to the programs and
       operations administered or financed by the PBGC, recommend corrective action
       concerning such problems, and report on the progress made in implementing
       corrective actions.

       The OIG staff consists of eleven (11) employees, of which two are investigators.
       We continue to accomplish our investigative program through the use of
       contract investigators, though this is limiting because conducting criminal
       investigations is an inherently governmental function.

       The Chief Financial Officers Act (CFO Act) requires that a government
       corporation's financial statements be audited by the Inspector General, unless
       preempted by GAO. The OIG contracted for an Independent Public Accountant
       (IPA) to perform the audit of the Corporation’s FY 1998 financial statements.




MARCH 1999                                                             PAGE 1
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




AUDIT ACTIVITIES
OVERVIEW
       The OIG provides independent analyses to management on a full range of
       PBGC's operations including programs, activities, functions, and funds. The
       OIG has full discretion in establishing audit objectives, plans, and priorities.
       During this reporting period, the OIG issued eight (8) reports (see TABLE 1) to
       help PBGC reduce costs and strengthen management controls. Below is a
       summary of those reports. Our audits comply with the United States General
       Accounting Office’s Government Auditing Standards, while the inspections
       comply with quality standards for inspections published by the President's
       Council on Integrity and Efficiency.


AUDITS AND EVALUATIONS

       AUDIT OF THE PENSION BENEFIT GUARANTY
       CORPORATION’S FISCAL YEARS 1998 and 1997
       FINANCIAL STATEMENTS
       (99-6/23132-1) and (99-7/23132-2)

       The OIG engaged PricewaterhouseCoopers LLP to conduct an audit of PBGC’s
       financial statements of the Single-Employer Program Fund and the
       Multiemployer Program Fund for the fiscal years (FY) ended September 30, 1998
       and 1997. The audit was performed under the direction and general supervision
       of the OIG and resulted in three reports:

       •   An unqualified opinion report on the financial statements, which opines
           that they present fairly, in all material respects: (1) the financial position of
           the Single-Employer Program and Multiemployer Program Funds
           administered by PBGC as of September 30, 1998, and 1997, and (2) the
           results of their operations and cash flows for the years then ended, in
           conformity with generally accepted accounting principles.

       •   The report on internal control notes three reportable conditions. First, PBGC
           needs to integrate its financial management systems and improve its systems
           development life cycle methodology. Secondly, PBGC needs to finalize and
           test its plan for maintaining continuity of operations. Finally, PBGC needs
           to implement and improve controls surrounding the Participant Records
           Information Systems Management (PRISM) application, the system PBGC
           uses to maintain and process pension participant information.

       •   The report on compliance with applicable laws and regulations indicates
           that, with respect to items tested, no instances of non-compliance were
           disclosed.

       The OIG issued a report with these three opinions (99-7/23132-2). In addition,
       the OIG issued a single page report that PBGC incorporated into its FY 1998
       Annual Report (99-6/23132-1).




MARCH 1999                                                               PAGE 2
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



       INDEPENDENT ACCOUNTANT’S REPORT
       ON APPLYING AGREED-UPON
       PROCEDURES FOR FACTS DATA
       (99-9/23132-4)

       The General Accounting Office (GAO) requested that the OIG perform specific
       procedures related to the Schedule of Summarized FACTS Data submitted by
       PBGC to the Department of Treasury (Treasury), which included a department
       level Adjusted Trial Balance report and selected footnote data. The procedures
       were performed solely to assist Treasury in the preparation of consolidated
       financial statements of the United States for the year ended September 30, 1998
       and to assist GAO in the audit of those statements.

       CONGRESSIONAL REVIEWS

       In August of 1997, the Honorable Charles Grassley, Chairman of the Special
       Committee on Aging of the United States Senate (Committee), asked the OIG to
       address certain questions regarding Initial Determination Letters (IDLs).
       Specifically, the Committee was concerned with the amount of time it takes
       PBGC to issue IDLs. The OIG was asked to conduct a multi-year review of
       PBGC’s IDL process to include the following:

       •   An evaluation of the efficiency and effectiveness of PBGC’s process to
           issue IDLs;
       •   The length of time it takes PBGC to issue an IDL;
       •   The effect of such delays upon individuals awaiting IDLs; and
       •   The number of appeals filed yearly, the number of appeals pending at
           the end of each fiscal year and the number of appeals granted in favor
           of the participant or upholding the PBGC’s initial determination.

       We reported on the appeals question in our last Semiannual Report to Congress
       (Audit Of PBGC's Response To Certain Questions Concerning Appeals Of PBGC
       Initial Determinations Of Pension Benefits (98-10/23131)). The following presents
       our summaries of the three remaining reviews.

       IMPROVEMENTS ARE NEEDED TO ACHIEVE
       BETTER EFFICIENCY AND EFFECTIVENESS
       IN PBGC’S BENEFIT DETERMINATION PROCESS
       (99-2/23128-1)
       An IDL is written notification to participants and others of PBGC’s official
       decision regarding entitlement to, amount and other conditions of a pension
       benefit. The IDL is generated as a result of the benefit determination process
       managed by the Insurance Operations Department (IOD). According to IOD’s
       procedures manual, there are several processes that must be completed before
       the IDLs can be provided to participants. PBGC categorizes these benefit
       determination processes as: pre-termination, initial trusteeship, audit and
       valuation. After these processes are completed, PBGC issues the IDLs during the
       notification process. The final process is case closure.

       We reviewed the efficiency and effectiveness of the benefit determination process.
       We found that PBGC’s current process has increased the number of IDL’s issued
       annually.   However, we identified opportunities to improve PBGC’s benefit
       determination process in several key areas: (1) developing and



MARCH 1999                                                            PAGE 3
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL           PENSION BENEFIT GUARANTY CORPORATION



       implementing timeliness performance measurements that would link to PBGC’s
       strategic goals and desired performance outcomes; (2) taking reasonable steps to
       ensure that IDLs have been issued to all participants; (3) strengthening controls
       to accurately account for IDLs issued; (4) eliminating redundant activities within
       the benefit determination process; (5) collecting plan records earlier; (6)
       establishing mandatory training requirements for employees responsible for the
       benefit determination process; and (7) ensuring that time spent performing the
       benefit determination processes is accurately captured and recorded.

       THE LENGTH OF TIME IT HAS TAKEN PBGC TO
       ISSUE INITIAL DETERMINATION LETTERS
       (99-3/23128-2)
       We performed a multi-year review of the length of time that it has historically
       taken PBGC to issue IDLs to participants in terminated plans. We selected a
       sample of 60 terminated plans from a population of 1,715 plans which had been
       terminated and trusteed by PBGC and for which IDLs had been issued. This
       sample included approximately 87,000 IDLs.

       Using the sample data provided by PBGC, we selected the Date of Trusteeship
       (DOTR) and the Actuarial Valuation Completion Date (AVCD) to calculate
       historical average lengths of time taken by PBGC to issue IDLs to participants.
       The DOTR was selected because PBGC uses this date to calculate and
       subsequently report the average length of time it takes to issue IDLs to
       participants. The AVCD date was selected because, at this point in the benefit
       determination process, the analysis of participant information has been
       completed and each participant’s final benefit amount has been determined.

       We compared IDL issuance dates against the DOTR and the AVCD dates and
       found that 53% of IDLs were issued between four and nine years after DOTR.
       We also found that 46% of IDLs were issued between two and six years after the
       AVCD.

       Our review also disclosed problems pertaining to participants’ IDL data
       maintained on two PBGC information systems -- PRISM and the Image
       Processing System (IPS). Specifically, we identified that PRISM contained
       duplicate, incomplete and erroneous data. We also found that IPS did not
       contain supporting documentation for all IDLs in our sample.

       PENSION PLAN PARTICIPANTS IMPACTED
       BY DELAYS IN INITIAL DETERMINATION
       LETTER ISSUANCE (99-1/23128-3)

       The objective of this review was to determine the effects on participants due to a
       delay in the issuance of IDLs. In order to assess the impact on participants, we
       evaluated certain information maintained by PBGC: 1) videotapes of focus
       groups conducted by PBGC between 1994 and 1998 composed of participants in
       terminated plans that PBGC trusteed; 2) controlled correspondence received by
       PBGC from April 1996 through April 1998; and 3) responses to PBGC Customer
       Service Surveys from 1995 through 1997.

       Our review disclosed that there appears to be a gap between PBGC’s perception
       of the impact and the perception of those who are waiting for their IDLs. We
       asked PBGC management: What is the affect on plan participants of PBGC’s




MARCH 1999                                                            PAGE 4
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL          PENSION BENEFIT GUARANTY CORPORATION



       delay in issuing IDLs? Consistently, PBGC focused on the financial impact and
       emphasized that participants were receiving monthly pension benefits.

       Our review disclosed some participants and beneficiaries who reported that the
       delayed IDLs greatly impacted them.        Notwithstanding PBGC’s immediate
       payment of their monthly benefit, they reported other economic harms such as
       inability to plan their financial future and the requirement to repay overpaid
       benefit amounts. The participants noted that when the estimated benefit had
       been incorrectly computed by PBGC in the first instance, then PBGC’s delay in
       issuing the IDL compounded the overpayment. In addition, until the IDL is
       issued participants receive estimated benefits and have no rights to appeal.
       They also reported impacts other than financial, such as emotional.


AUDIT FOLLOW-UP AND RESOLUTION

       The audit follow-up system at PBGC is integral to effective management and is a
       shared responsibility of PBGC management and the OIG. PBGC has established
       an audit follow-up system to document management's actions and assure
       prompt resolution of both OIG and GAO audit recommendations.

       The Office of Management and Budget (OMB) Circular A-50 requires that audit
       recommendations be resolved within six (6) months of issuance. The OMB
       guidance provides that audit recommendations are resolved when Agency
       management and the OIG reach agreement on firm plans of action to correct
       reported weaknesses.      Resolution, however, does not mean an audit
       recommendation is closed. The OIG closes audit recommendations only when
       corrective actions have been completed by the Agency.

       The OIG issued the Semiannual Listing of Audit Recommendations (99-5/32091)
       which contained eighty-two (82) audit recommendations of which seventy-six
       (76) were outstanding from the prior reporting period. Of these open audit
       recommendations, the OIG’s Semiannual Report on Follow-up of Audit
       Recommendations         (99-10/32092)   reported  twenty-seven    (27) audit
       recommendations that PBGC reported closed and in which the OIG concurred.
       Fifty-five (55) audit recommendations remained open on March 31, 1999.


ACCESS TO INFORMATION
       Under the Act, the Inspector General is to have unfettered access to all agency
       records, information, or assistance when engaged in an investigation or audit.
       Whenever access to requested records, information or assistance is
       unreasonably refused or not provided, the Inspector General must promptly
       report the denial to the Agency Head. During this six-month reporting period,
       the Inspector General’s access to information was not unreasonably restricted.


PBGC MANAGEMENT - INSPECTOR GENERAL
DISAGREEMENTS
       Semiannually, the OIG must report the status of all unresolved audit reports
       that are more than six months old to the Agency Head. For this reporting
       period, there were no unresolved audit reports in which PBGC management
       decisions are pending.




MARCH 1999                                                           PAGE 5
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL              PENSION BENEFIT GUARANTY CORPORATION




                                             TABLE 1

                       INSPECTOR GENERAL ISSUED REPORTS
                          For The Six-month Period Ending
                                 MARCH 31, 1999

                                                     DOLLAR       DOLLAR             DOLLAR
                                                    VALUE OF     VALUE OF           VALUE OF
REPORT                                    DATE     QUESTIONED     BETTER       UNSUPPORTED
NUMBER           REPORT TITLE            ISSUED      C OSTS     USED FUNDS        C OSTS

Audits

99-2/     Improvements Are Needed        3/2/99        -0-          -0-               -0-
23128-1   To Achieve Better
          Efficiency And
          Effectiveness In PBGC’s
          Benefit Determination
          Process
99-6/     Audit of the Pension           3/3/99        -0-          -0-               -0-
23132-1   Benefit Guaranty
          Corporation’s Fiscal Years
          1998 and 1997 Financial
          Statements (Single Page
          Report)
99-7/     Audit of the Pension           3/3/99        -0-          -0-               -0-
23132-2   Benefit Guaranty
          Corporation’s Fiscal Years
          1998 and 1997 Financial
          Statements

Evaluations

99-1/     Pension Plan Participants       3/2/99        -0-          -0-               -0-
23128-3   Impacted By Delays In
          Initial Determination Letter
          Issuance
99-3/     The Length of Time It Has       3/2/99        -0-          -0-               -0-
23128-2   Taken PBGC To Issue Initial
          Determination Letters
99-5/     Semiannual Listing of Audit    1/31/99        -0-          -0-               -0-
32091     Recommendations
99-9/     Independent Accountant’s        3/2/99        -0-          -0-               -0-
23132-4   Report On Applying Agreed-
          Upon Procedures for FACTS
          Data
99-10/    Semiannual Report on           3/31/99        -0-          -0-               -0-
32092     Follow-up of Audit
          Recommendations




MARCH 1999                                                                 PAGE 6
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                           PENSION BENEFIT GUARANTY CORPORATION




                                                TABLE 2     *


                       REPORTS ISSUED WITH QUESTIONED COSTS
                           For The Six-month Period Ending
                                   MARCH 31, 1999


                                                           NUMBER
                                                                OF          QUESTIONED         UNSUPPORTED
                                                          REPORTS             C OSTS              C OSTS

 A.   For which no management decision has
      been made by the commencement of the
      reporting period                                          0               -0-                -0-

 B.   Which were issued during the reporting
      period                                                    0               -0-                -0-

      Subtotal ( Add A & B)                                     0               -0-                -0-

 C.   For which a management decision was
      made during the reporting period                          0               -0-                -0-

      (i)      dollar value of disallowed costs                 0               -0-                -0-

      (ii)     dollar value of costs not
               disallowed                                       0               -0-               - 0-

 D.   For which no management decision has
      been made by the end of the reporting
      period                                                    0               -0-                -0-

 E.   Reports for which no management
      decision was made within six months of
      issuance                                                  0               -0-                -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




MARCH 1999                                                                             PAGE 7
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                        PENSION BENEFIT GUARANTY CORPORATION




                                                TABLE 3     *


                        REPORTS ISSUED WITH RECOMMENDATIONS
                           THAT FUNDS BE PUT TO BETTER USE
                             For The Six-month Period Ending
                                    MARCH 31, 1999


                                                                             NUMBER
                                                                                OF              DOLLAR
                                                                             REPORTS            VALUE

 A.   For which no management decision has been made by
      the commencement of the reporting period                                   0               -0-

 B.   Which were issued during the reporting period                              0               -0-

      Subtotal ( Add A & B)                                                      0               -0-

 C.   For which a management decision was made during the
      reporting period                                                           0               -0-

      (i)         dollar value of recommendations that were
                  agreed to by management                                        0               -0-

             --   based on proposed management action                            0               -0-

             --   based on proposed legislative action                           0               -0-

      (ii)        dollar value of recommendations that were not
                  agreed to by management                                        0               -0-

 D.   For which no management decision has been made by
      the end of the reporting period                                            0               -0-

 E.   Reports for which no management decision was made
      within six months of issuance                                              0               -0-




* This statistical information is required by the Inspector General Act of 1978, as amended.




MARCH 1999                                                                             PAGE 8
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL              PENSION BENEFIT GUARANTY CORPORATION




INVESTIGATORY ACTIVITIES
OVERVIEW
               The Inspector General is authorized to receive and investigate complaints
               from PBGC employees, the public, and other sources concerning
               violations of law, rule, or regulation; mismanagement; gross waste of
               funds; abuse of authority; or a substantial and specific danger to the
               public health and safety. Individuals may disclose information or make
               complaints to the Inspector General through the OIG "Hotline." (See
               announcement on back cover page.) The Inspector General has a policy
               to protect the legal rights of whistleblowers and complainants. At all
               times, the Inspector General takes reasonable precautions not to disclose
               the identity of the complainant without that person's consent.

               When we receive an allegation, we review it to determine its sensitivity
               and need for immediate OIG investigation, whether it has a lower
               priority, or whether it can be referred to the agency for review and
               corrective action. Allegations designated as priority receive immediate
               attention. Generally, these investigations use more time and resources,
               often requiring a team approach. To meet these challenges, the OIG has
               undertaken many strategies to responsibly investigate allegations that
               are brought to us, including hiring former federal investigators as
               contractors. Even with these additional contract resources, we have had
               to cease investigation activities and close some cases administratively.
               Though we have systematically reduced our investigative caseload, we
               are still faced with the inability to investigate allegations timely, which is
               unacceptable to us.


ACTIVITY THIS PERIOD
               The OIG received 19 complaints or allegations, and closed 9 investigative
               cases during the reporting period. As of March 31, 1999, 43 cases remain
               open (see Table 4 for investigative program statistics).

               OIG HOTLINE
               The OIG operates a separate "1-800" hotline telephone number and a
               post office box. The Hotline telephone is answered by an investigative
               staff assistant for a two-hour period, Monday through Friday; at all other
               times there is a message that provides information about the Hotline
               service. For the period October 1, 1998 through March 31, 1999, we
               received a total of 12 Hotline inquiries.

               100% of the contacts were first-time inquiries relating to pension benefit
               questions, which were referred to the agency for action. We did not open
               any cases from our Hotline contacts this period.




MARCH 1999                                                               PAGE 9
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION



               EFFORTS TO REDUCE
               PENSION FRAUD
               The OIG continues to work with agency personnel to identify and
               prevent instances in which fraud occurs in the payment of pension
               benefits. During this period, we obtained an indictment of a participant
               who submitted a fraudulent birth certificate to the agency and received
               benefits 10 years before he was entitled to receive them. This case is on-
               going.

               AGREEMENT ON FRAUD
               INVESTIGATION
               In our last report, we reported that PBGC had issued a policy, over OIG
               objections, that agency personnel would conduct investigations of
               alleged fraudulent waivers of spousal benefits. Under the law, a pension
               plan participant who is married must be given a joint and survivor
               benefit unless his spouse consents in writing to waive his/her
               entitlement to the benefit. During this period, OIG and senior agency
               management revisited this issue.       We agreed that when the agency
               receives an allegation from a spouse that the waiver of benefits is
               fraudulent, this matter would be referred to the OIG for investigation.

SIGNIFICANT INVESTIGATIONS
               IMPROPER ASSISTANCE TO
               APPLICANT BY SELECTING OFFICIAL

               We received an allegation that a supervisor who was the selecting official
               for a vacancy had given improper assistance to an applicant for
               employment. We investigated and found that the supervisor provided
               assistance to the applicant in drafting the SF-171, requested a federal
               employee to review the application, made false statements to the OIG,
               withheld posting of the vacancy announcement until the applicant
               received civil service results, and took actions causing employees to fear
               reprisal for participation in the OIG investigation.

               HARASSING INTERNET E-MAIL

               The OIG received an allegation that a harassing e-mail emanating from
               PBGC was sent to an employee of an outside organization.             We
               investigated and determined that the e-mail was of a threatening nature
               and was sent by a PBGC contractor using a personal e-mail account. As
               a result of our findings, the contract employee is no longer employed at
               PBGC.

               QUI TAM ASSISTANCE TO DOJ

               The Department of Justice (DOJ) asked the OIG to provide an
               investigator to analyze and investigate allegations made by relators in a
               qui tam action.    The investigator worked at the direction of the DOJ
               attorneys. In March 1999, DOJ declined to intervene and the qui tam
               action was unsealed.




MARCH 1999                                                             PAGE 10
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                           PENSION BENEFIT GUARANTY CORPORATION




                                                   TABLE 4

                         STATISTICAL TABLES OF INVESTIGATIONS
                             For The Six-month Period Ending
                                    MARCH 31, 1999


CASE LOAD

                  Pending beginning of period                                              33
                  Opened this period**                                                     20
                  Closed this period                                                        9
                  Pending end of period ***                                                44


WRONGDOING ALLEGED (CASES OPENED)

                  Fraud, Waste & Abuse                                                       6
                  Wrong Doing                                                                2
                  Theft                                                                      6
                  Improprieties Relating to Pension Benefits                                 5
                  Proactive                                                                  1


RESULTS OF CASES CLOSED

                  Allegation disproved or not substantiated                                  2
                  Referred to agency for corrective action                                   2
                  Prosecutions & Civil Settlements                                           0
                     Monetary recovery
                  Prosecution declined; referred for agency                                  0
                      disciplinary action
                  Administrative Closings                                                    5


HOTLINE AND MAIL INQUIRIES

                  Received this period                                                     12

                            First time caller referrals to agency                 12
                            Mail referrals to agency                               0
                            OIG Customer Assistance                                0
                            Cases opened                                           0




** Of the twenty new cases opened this period, none resulted from Hotline and mail inquiries.

*** Thirty-one of the forty-four investigative cases that are open are from prior reporting periods.



MARCH 1999                                                                                PAGE 11
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL            PENSION BENEFIT GUARANTY CORPORATION




OTHER ACTIVITIES
REVIEW OF PROPOSED STATUTORY
AND REGULATORY CHANGES

               To comply with the IG Act, the OIG Legal Counsel is notified by the Office
               of the General Counsel when the agency is proposing legislative and
               regulatory changes. During this period, we reviewed and commented on
               proposed amendments to regulations relating to safe harbor for premium
               payers.

CONSULTATION WITH AGENCY

               The OIG engaged in several activities this period that included
               coordination with agency officials to provide technical assistance and
               advice on PBGC program. Some are:

               •   The OIG was asked to participate with an agency contractor to train
                   timekeepers and supervisors concerning PBGC’s new automated
                   timekeeping system.      The Deputy IG and the Lead Criminal
                   Investigator presented a session about prevention and detection of
                   fraud and abuse, how to report suspected fraud, and information
                   about the OIG.

               •   We are participating on a multi-department team to assess PBGC’s
                   compliance with Year 2000 issues.

CONSULTATION WITH CONGRESS

               The OIG continues to meet with the Senate Special Committee on Aging
               and the Senate Small Business Committee to answer questions about
               agency operations.

LIAISON WITH THE UNITED STATES
GENERAL ACCOUNTING OFFICE
               There is no on-going work of GAO involving PBGC at this time.




MARCH 1999                                                             PAGE 12
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL                PENSION BENEFIT GUARANTY CORPORATION



                                             TABLE 5

                            CROSS-REFERENCE TO REPORTING
                      REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages in the report where they are
addressed.



  Inspector General
    Act Reference       Reporting Requirements                                        Page


Section 4 (a) (2)       Review of legislation and regulations.                         12

Section 5 (a) (1)       Significant problems, abuses, and deficiencies.               2 - 5,
                                                                                       10

Section 5 (a) (2)       Recommendations with respect to significant                   2 - 5,
                        problems, abuses, and deficiencies.                            10

Section 5 (a) (3)       Prior significant recommendations on which                      5
                        corrective actions has not been completed.

Section 5 (a) (4)       Matters referred to prosecutive authorities.                   11

Section 5 (a) (5)       Summary of instances where information was                      5
                        refused.

Section 5 (a) (6)       List of audit reports by subject matter, showing dollar         6
                        value of questioned costs and funds put to better use.


Section 5 (a) (7)       Summary of each particularly significant report.              2 - 5,
                                                                                       10

Section 5 (a) (8)       Statistical table showing number of reports and dollar          7
                        value of questioned costs.

Section 5 (a) (9)       Statistical table showing number of reports and dollar          8
                        value of recommendations that funds be put to better
                        use.

Section 5 (a) (10)      Summary of each audit issued before this reporting            None
                        period for which no management decision was made
                        by end of reporting period.

Section 5 (a) (11)      Significant revised management decisions.                     None

Section 5 (a) (12)      Significant management decisions with which the                 5
                        Inspector General disagrees.




MARCH 1999                                                                  PAGE 13
SEMIANNUAL REPORT OF THE INSPECTOR GENERAL             PENSION BENEFIT GUARANTY CORPORATION




GLOSSARY
The following defines the terms used in this report.


Questioned Cost         A cost the OIG has questioned because of an alleged
                        violation of law, regulations, contract, grant, cooperative
                        agreement, or other agreement or document governing the
                        expenditure of funds; such cost is not supported by
                        adequate documentation; or the expenditure of funds for the
                        intended purpose is unnecessary or unreasonable.

Unsupported Cost        A cost the OIG has questioned because of a lack of adequate
                        documentation at time of the audit.

Disallowed Cost         A questioned cost that management, in a management
                        decision, has sustained or agreed should not be charged to
                        the government.

Funds To Be Put         Funds the OIG has identified in an audit recommendation
To Better Use           that could be used more efficiently by reducing outlays,
                        deobligating program or operational funds, avoiding
                        unnecessary expenditures, or taking other efficiency
                        measures.

Management              Management's evaluation of audit findings and
Decision                recommendations and issuance of a final decision
                        concerning management's response to such findings and
                        recommendations.

Final Action            The completion of all management actions -- that are
                        described in a management decision -- with respect to audit
                        findings and recommendations. If management concluded
                        no actions were necessary, final action occurs when a
                        management decision is issued.


Misconduct              Action of employees or contractors that violates law, rules,
                        or regulations for which corrective action is warranted.




MARCH 1999                                                              PAGE 14
IF   YOU WANT TO REPORT OR DISCUSS CONFIDEN-
TIALLY ANY INSTANCE OF MISCONDUCT, FRAUD,
WASTE, ABUSE, OR MISMANAGEMENT, PLEASE

CONTACT THE   OFFICE OF INSPECTOR GENERAL.


You can telephone:

        The Inspector General's HOTLINE

                1-800-303-9737


Or you can write:

     Pension Benefit Guaranty Corporation
          Office of Inspector General
                P.O. Box 34770
         Washington, D.C. 20043-4770
